No. 20-1362
a a |
IN THE

Supreme Court of the United States

DAVDRIN GOFFIN,
Petitioner
v.

ROBBIE K. ASHCRAFT,
Respondent

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

AMICI CURIAE BRIEF FOR DC JUSTICE LAB,
DC SHY-YAB, HARRIET’S WILDEST DREAMS,
HELPING OURSELVES TO TRANSFORM,
LIFE AFTER RELEASE, AND STND4YOU, INC.
IN SUPPORT OF PETITIONER

CERTIFICATE OF WORD COUNT

I certify that the Brief of Amici Curiae in Support of Petitioner in the above-
named matter contains 5,559 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

   

Curiae
